<html>
<title> - CREATING THE CLEAN ENERGY WORKFORCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  CREATING THE CLEAN ENERGY WORKFORCE

=======================================================================

                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON INNOVATION AND WORKFORCE DEVELOPMENT

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            OCTOBER 29, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               
                               

            Small Business Committee Document Number 116-055
             Available via the GPO Website: www.govinfo.gov            
             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-121                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jason Crow..................................................     1
Hon. Troy Balderson..............................................     3

                               WITNESSES

Mr. Mark Farrar Jackson, Vice President, Community Housing 
  Partners dba CHP Energy Solutions, Christiansburg, VA..........     5
Mr. Jason L. Wardrip, Business Manager, Colorado Building and 
  Construction Trades Council, Denver, CO........................     7
Mr. Neil James, Vice President, Operations and Maintenance, Apex 
  Clean Energy, Charlottesville, VA..............................     8
Mr. Ed Gilliland, CEcD, AICP, PMP, Senior Director, The Solar 
  Foundation, Washington, DC.....................................    10

                                APPENDIX

Prepared Statements:
    Mr. Mark Farrar Jackson, Vice President, Community Housing 
      Partners dba CHP Energy Solutions, Christiansburg, VA......    22
    Mr. Jason L. Wardrip, Business Manager, Colorado Building and 
      Construction Trades Council, Denver, CO....................    25
    Mr. Neil James, Vice President, Operations and Maintenance, 
      Apex Clean Energy, Charlottesville, VA.....................    27
    Mr. Ed Gilliland, CEcD, AICP, PMP, Senior Director, The Solar 
      Foundation, Washington, DC.................................    30
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
                  CREATING THE CLEAN ENERGY WORKFORCE

                              ----------                              


                       TUESDAY, OCTOBER 29, 2019

                  House of Representatives,
               Committee on Small Business,
          Subcommittee on Innovation and Workforce 
                                        Development
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Jason Crow 
[chairman of the Subcommittee] presiding.
    Present: Representatives Crow, Finkenauer, Kim, Davids, 
Schneider, Balderson, Chabot, and Hern.
    Chairman CROW. The Committee will come to order.
    First, I want to thank everyone for joining us this 
morning. I want to especially thank the witnesses for being 
here today. You are all taking time out of your very busy 
schedules to talk about this important topic. Mr. Balderson and 
I appreciate that.
    As you notice, there are a number of Committee hearings 
going on concurrently right now so members will be coming and 
going, so do not be deterred as you are making your statements 
and answering questions.
    As the congressman for Colorado's 6th District, I 
understand the importance of clean and renewable energy for our 
environment and our economy. We know that climate change is 
impacting towns and communities across the country--from more 
intense and frequent wildfires and tropical storms, from the 
west to east coast in rising sea levels and coastal levels like 
Miami, to nonstop rain damaging crops and farms across rural 
America. In my home state, we know the impact on the summer and 
winter recreation economy very well.
    Protecting our environment and public health was not always 
a partisan issue, and it should not be today. Not only does 
climate change pose a risk to our economy and the health and 
well-being of all Americans, but as a former Army Ranger, I 
also understand that this is an acute national security threat.
    For these reasons, it is critical we move to more clean 
energy and away from fossil fuels by producing products and 
providing services supporting bold and practical environmental 
and energy policy for America's future.
    Doing so will not only be good environmental policy but 
also help transform our economy to be more resilient in the 
future. Through innovation and entrepreneurship, we can address 
the harmful impacts of climate change while also creating 
millions of good paying jobs here in the U.S. that will lead to 
sustained economic growth.
    And like they do in many other sectors, the clean energy 
economy presents an opportunity for small firms to lead the way 
by reducing emissions, supporting renewable energy, creating 
clean energy jobs, increasing efficiencies, and reducing their 
overall environmental footprint.
    From producing biofuels and installing energy efficient 
equipment to manufacturing components and auditing buildings, 
clean energy businesses can be found across Colorado. In my 
home state, we now have over 65,000 jobs in the clean energy 
sector, creating a cleaner energy supply while growing the jobs 
of the future. In fact, Denver, neighboring my district, ranks 
8th out of 75 large U.S. cities in clean energy. Across the 
country, there are over 3 million clean energy jobs and I 
believe renewable sources of energy such as geothermal, wind, 
and solar power, is the technology of the future.
    And since many of the businesses in the clean energy 
economy take advantage of their local natural resources and do 
not require massive capital investment like traditional fossil 
fuels, this sector of the economy is ripe for innovators, 
entrepreneurs, and small businesses.
    Of the nearly 360,000 energy efficiency businesses in the 
United States, roughly 45 percent of them have between one and 
five workers. The same goes for the solar industry, where 70 
percent of businesses have fewer than 50 employees. But while 
clean energy jobs outnumber fossil fuel jobs nearly 3-to-1, 
clean energy still provides only 16 percent of the country's 
overall energy needs. Clearly, there is plenty more work to be 
done and room for these companies to grow and expand.
    But that ability to expand is hindered by the ongoing 
problems we hear from many small businesses who are unable to 
find qualified workers to meet their needs. An aging workforce 
combined with a growing skills gap among our current workforce 
is keeping small and large firms from reaching their full 
potential.
    So, while demand for clean and renewable energy has 
continued to grow--due to falling prices of wind and solar, 
better incentives and tax credits, and widespread support for 
environmental responsibility from individuals and 
corporations--businesses are having a harder time hiring the 
staff necessary to meet this demand.
    This is why we are here today. To support the rapid 
transition of our energy sources and create a forward-looking 
economy, a massive workforce mobilization effort will be 
required. And to do that, we need to train Americans of all 
ages to do these jobs. This should include transitioning the 
current fossil fuel workforce to ensure that they continue to 
receive a paycheck, health care, pensions, and other 
necessities that comes from an energy job.
    This can be done through targeted apprenticeships and job 
training programs supported by the Department of Labor and 
partnerships between local businesses, governments, and 
academia. It can also be accomplished with the support of labor 
unions that already have apprenticeship and certification 
programs in place to train current workers transitioning out of 
the fossil fuel industry and the next generation of workers for 
high paying jobs with high quality health care and retirement 
benefits.
    We know that small businesses in a variety of industries, 
such as construction, manufacturing, architecture, and the STEM 
fields all contribute to the clean energy economy. This is a 
result of Federal support for renewables, as well as tax 
incentives for clean energy and energy efficiency.
    But to reach its full potential, workforce development and 
training are essential components to creating and sustaining 
the clean energy of the 21st century.
    I look forward to hearing from our expert witnesses today 
on how we can best train the next generation of clean energy 
workers and empower small businesses so the U.S. can once again 
be the world leader in energy development, innovation, and 
environmental protection.
    And I would now like to yield to my Ranking Member, Mr. 
Balderson, for an opening statement.
    Mr. BALDERSON. Chairman Crow, thank you very much. And 
thank you for your opening statement. I would like to also 
thank all of you as Chairman Crow said for the opportunity that 
you all are here and taking time out of your busy schedule. I, 
unfortunately, am one of those members that has a markup going 
on in another Committee, so I will be leaving. I apologize for 
that. But we are really grateful for your time and what it 
takes to be here. So thank you very much for your effort. Thank 
you, Mr. Chairman.
    Today, our Subcommittee will explore the employment 
opportunities generated by the clean energy economy and examine 
the readiness of our Nation's workforce to meet industry needs. 
Energy modernization has stimulated innovation and revitalized 
core industries. Its economic impact is felt nationwide.
    Last month, the Subcommittee on rural development, 
agricultural trade, and entrepreneurship held a hearing on 
small business participation in the clean energy economy. 
Witnesses emphasized the impact of public policies on clean 
energy industries and business opportunities. Increased 
financial incentives for energy efficient technologies and 
systems has increased demand for contractor that specialize in 
selling and installing and certifying these systems to homes 
and businesses. Yet, according to the 2016 Energy Efficiency 
Jobs in America, 70 percent of energy efficiency firms have 
only 10 employees or fewer. We can do more to drive skilled 
workers towards this emerging industry.
    Building up that foundation laid in September, today, we 
will focus on how we can ensure that our country's workforce is 
meeting the diverse needs of clean energy employers. Clean 
energy small businesses are involved throughout the technology 
value change from research and development to manufacturing and 
installation. While tech startups need highly educated 
engineers, local contractors need construction tradesmen. 
Unfortunately, our workforce has not yet caught up with this 
rapidly expanding employer demand.
    The Brookings Institution found that workers with no more 
than a high school diploma fill nearly half of clean energy 
production. Occupations earn higher median pay when compared to 
their peers in other industries.
    The clean energy sector offers opportunities that are 
exceedingly rare in our economy, jobs with low educational 
entry barriers and high-yielded pay. Filling said jobs would 
make a significant difference in low-income communities across 
Ohio, including my home state of Ohio.
    A lively and dynamic workforce pipeline is critical to the 
future of growth of clean energy firms. To make this 
significant investment, firms need policy consistency and 
regulatory clarity. In that regard, I would also like to 
mention that I am co-sponsor of related legislation, the Blue 
Collar and Green Collar Jobs Development Act of 2019, which 
directs the Department of Energy to establish and carry out a 
comprehensive, nationwide, energy-related industry jobs 
program. I believe we can employ this same innovation thinking 
in today's hearing.
    Thank you to our witnesses for introducing us to the clean 
energy workforce and strategies to meet the needs of small 
employers.
    I yield back, Chairman.
    Chairman CROW. Thank you, Mr. Balderson. The gentleman 
yields back.
    And if Committee members have an opening statement 
prepared, we will ask that they be submitted for the record.
    I would like to just take a minute to explain the timing 
rules. Each witness gets 5 minutes to testify and each member 
get 5 minutes for questioning. There is a lighting system to 
assist you so you know how much time you have left. The green 
light will be on when you begin, and the yellow light will come 
on when you have 1 minute remaining. The red light will come on 
when you are out of time, and we ask that you stay within that 
timeframe to the best of your ability.
    I would now like to introduce our only witness.
    Our first witness is Mr. Mark Jackson, the vice president 
of Energy Solutions at the Community Housing Partners, a 
nonprofit that provides weatherization assistance to low-income 
housing. He oversees the operations of the internationally 
renowned Weatherization Assistance Program Research and 
Training Center in utility energy efficiency programs. These 
programs have delivered weatherization services to more than 
40,000 households and trained over 38,000 participants in 
building science and energy conservation techniques. Thank you, 
Mr. Jackson, for being here today.
    Our second witness is Mr. Jason Wardrip, the business 
manager for the Colorado Building and Construction Trades 
Council in my district of Aurora, Colorado. The council is 
comprised of 24 craft local unions who represent 14 national 
and international unions and represent roughly 30,000 skilled 
working men and women in Colorado. Mr. Wardrip serves the 
building trades to promote pre-apprenticeships, 
apprenticeships, develop labor standards and procurement 
policies at all levels of government. He has decades of 
experience as a sheet metal worker before representing the 
Colorado AFL-CIO as president and the Building Trades Council 
as vice president. Thank you for joining us today, Mr. Wardrip.
    Our third witness today is Mr. Neil James. Mr. James brings 
38 years of experience in electrical utilities, alternative 
energy, and high-voltage operations. He has a long career 
working for BP Wind, NextEra Energy, and Texas New Mexico 
Power. He has held various roles in both construction 
operations and maintenance providing good perspectives to the 
challenges of the industry. Welcome, Mr. James.
    I would now like to yield to our Ranking Member, who will 
introduce our final witness.
    Mr. HERN. Thank you, Mr. Chairman.
    Our final witness is Ed Gilliland, senior director for the 
Solar Foundation. In this role, he oversees multiple projects, 
including Solar Ready Vets, a national program to connect 
transitioning military personnel with solar training and 
employment opportunities. He was principal author for the 2015-
2018 National Solar Jobs Corps census reports in the 2017 Solar 
Schools Report. Mr. Gilliland is a certified planner, economic 
development professional, and a project management 
professional. He holds two masters degrees from the University 
of Virginia, including an MBA from the Darden Graduate School 
of Business Administration. Welcome, sir.
    Chairman CROW. Thank you, Mr. Hern.
    Mr. Jackson, we will start with you. You are recognized for 
5 minutes.

 STATEMENTS OF MARK FARRAR JACKSON, VICE PRESIDENT, COMMUNITY 
      HOUSING PARTNERS DBA CHP ENERGY SOLUTIONS; JASON L. 
  WARDRIP,BUSINESS MANAGER,COLORADO BUILDING AND CONSTRUCTION 
  TRADES COUNCIL; NEIL JAMES, VICE PRESIDENT, OPERATIONS AND 
 MAINTENANCE,APEX CLEAN ENERGY; ED GILLILAND, CECD, AICP, PMP, 
             SENIOR DIRECTOR, THE SOLAR FOUNDATION

                STATEMENT OF MARK FARRAR JACKSON

    Mr. JACKSON. Thank you for having me here today, Chairman 
Crow and Ranking Member Hern. I appreciate the opportunity to 
speak to you and the other members of this Subcommittee.
    My name is Mark Jackson. I am the vice president of Energy 
Solutions at Community Housing Partners (CHP).
    CHP was formed over 40 years ago to address the poor 
housing conditions of low-income families in Virginia. In 1976, 
CHP became one of the first practitioners of DOE's newly 
created Federal Weatherization Assistance Program. Through our 
participation in that program, we recognized the need for 
robust training opportunities to ensure quality energy 
efficiency work. Therefore, in 1999, we opened our research and 
training center to provide building science and energy 
efficient training to weatherization providers across the 
country.
    In addition to this work, CHP is also an affordable housing 
manager and developer in seven states. CHP's scope of work 
makes us uniquely qualified to provide information on the 
energy efficiency workforce and the training opportunities that 
are available. We are an employer of energy efficiency workers. 
We contract with small businesses in the energy efficiency 
sector. We provide training to crews and agencies in the 
weatherization assistance program, and we have trained over 
38,000 energy efficiency and building science workers from both 
public and private sectors including code officials, HVAC 
technicians, and small home improvement businesses.
    There are reasons why we are talking energy efficiency 
businesses today. These businesses are primarily small 
businesses that are located in every U.S. state. Of the almost 
400,000 energy efficiency businesses in the U.S., nearly 80 
percent employer fewer than 20 workers while accounting for 
over 2 million energy efficiency jobs in the U.S. And energy 
efficiency, as we all know, is the fastest growing segment in 
the energy job sector.
    As one of the largest weatherization providers in the U.S., 
and in our role as an affordable housing manager and developer, 
CHP subcontracts with hundreds of small construction businesses 
across our service footprint. We are immersed in the challenges 
this industry faces every day.
    The construction industry is thriving, but over 80 percent 
of energy efficiency businesses report hiring difficulties. 
Almost half cite the lack of applicants who are experienced, 
trained, or have the necessary technical skills to do the work. 
CHP has posted 10 weatherization technician jobs so far this 
year in Virginia, and although we have had many applicants for 
every posting, positions remain open as we struggle to find 
qualified applicants.
    Compounding the issue is a lack of a skilled workforce. The 
expectation is that 40 percent of the current construction 
workers will retire in the next 12 years. CHP's experience 
aligns with this trend as well. Thirty percent of our current 
weatherization workers are over the age of 50. Those hiring 
challenges are even greater for small businesses as they lack 
the capital to invest in recruitment, hiring, and training 
programs.
    Thus, the importance of quality training. DOE notes that 
the ability to develop high performance homes that are energy 
efficient, healthy, and durable relies on building science 
education and training. Also, as all levels of governments 
recognize the need for and implement energy efficient programs 
and policies, the success of those programs and policies relies 
on a robust and well-trained energy efficiency workforce. There 
is so much opportunity in this sector if these hiring and 
training challenges can be addressed.
    The energy efficient sector also provides economic 
development benefits to its businesses' communities. Residents 
who have their homes weatherized by CHP see an average of a 30 
percent savings on their utility bills and there is a benefit 
from the jobs created in the industry, of course. As I stated, 
these jobs are in a rapidly growing sector and they are local. 
They cannot be outsourced. And competition for workers ensures 
that these jobs pay a living wage if we can find those workers.
    Less than 10 years ago, through a grant from the Department 
of Labor, CHP's training center successfully partnered with 
workforce development organizations, community colleges, and 
universities to provide green energy training to nearly 600 
individuals. The CREATES program was incredibly successful, and 
similar programs may be one of the approaches in solving 
today's crisis.
    I appreciate the time today you have given me. To restate 
the main points of my testimony, energy efficiency businesses 
are small businesses and the fastest growing segment of the 
energy jobs sector. Energy efficiency businesses are struggling 
to find and hire skilled workers. Workforce training is 
required to replace retiring employees and fill the new 
positions being created as the sector continues to grow, and 
energy efficient programs and policies provide benefits to 
workers and to the greater communities to which they are 
implemented.
    Thank you, and I look forward to your questions.
    Chairman CROW. Thank you, Mr. Jackson.
    Mr. Wardrip, you are now recognized for 5 minutes.

                 STATEMENT OF JASON L. WARDRIP

    Mr. WARDRIP. Thank you, Chairman. And the members of the 
Committee. I appreciate the opportunity to address you guys 
today. My name is Jason Wardrip. I am a Colorado native living 
in Aurora. I am the business manager of the Colorado Building 
and Construction Trades Council. Prior to my position, I was a 
business representative of Smart Union No. 9 for 10 years and 
have spent 24 years as a sheet metal worker.
    Our members are construction workers working in 
residential, light commercial, commercial, industrial, and 
power industries. My role is to support local unions in the 
state of Colorado for pre-apprenticeships, apprenticeship 
standards, and procurement. We have developed registered 
apprenticeships to give people pathways to become construction 
professionals. Our apprenticeships recruit transitioning 
military with the Helmets to Hard Hats Program, adults changing 
careers, and technical schools. We have pre-apprenticeship 
programs for high school students in underserved populations. 
We are also developing re-entry programs for pre-release 
offenders in conjunction with the Colorado Department of 
Corrections.
    The construction industry in Colorado is changing. 
Renewables are replacing coal in an amazingly fast pace. And 
this is causing a ripple effect through the construction 
industry. I never imagined as a young sheet metal worker that I 
would care about the economics of labor dynamics related to 
coal, gas, and renewables. However, my livelihood and the 
livelihood of our members depend on us understanding and 
adapting to the rapidly shifting market.
    I am pleased to testify to you today that I see a great 
opportunity for our industry in the new energy economy. As the 
desire to reduce carbon emissions escalates, our union members 
will answer the call to retrofit older technology and build the 
infrastructure of the future.
    There is a lot of work to create and modify our built 
spaces to be comfortable, efficient, and sustainable. Our union 
members are highly-skilled professionals. They get the job done 
right the first time. Our union workers are efficient and bring 
creative solutions to the table because we have been properly 
trained as on-the-job apprentices. Academic studies have proven 
the labor unions return the biggest bang for the buck. We are 
economic drivers of the Colorado economy. Our workers have 
health care and retire with dignity. We take pride in 
protecting each other's safety, reducing costly injuries, and 
deaths.
    However, in our changing energy market, we are looking to 
adopt big changes. The renewable energy market frequently 
brings construction workers from out of the state at lower 
wages with little to no benefit packages. We understand the 
independent power producers run a tight budget. However, I know 
in-state union contractors can do the job better than the out-
of-state labor being brought in. We can show dollar for dollar 
how we finish renewable projects on time, under budget, using 
local workers first.
    As these projects become larger, local hires will keep jobs 
in communities, particularly those losing jobs in the coal 
industry. Local workers maintain the economy they live in by 
purchasing goods and services, paying taxes, and homeownership 
in their communities. When out-of-state workers are brought in, 
the local economies suffer because the wages leave with the 
workers as the projects complete.
    To keep our jobs local and high quality, Colorado has 
passed policies in the last year to ensure proper licensing on 
solar installation and enact best value processes for energy-
generating projects.
    Starting in 2020, Colorado requires solar farms that are 
larger than 300 kilowatts to employ workers that are licensed 
journeymen or in a registered apprenticeship program. Unions 
also worked with environmental groups to create the Office of 
Just Transition for coal-dependent workers in the communities 
they live in.
    The new energy economy can provide high-quality jobs for 
all the trades. We train people to be safe and efficient in our 
registered apprenticeship programs. I ask you, Committee 
members, to look to our standards in Colorado as a solid start 
to creating good jobs in a zero carbon economy.
    Thank you, and I look forward to your questions.
    Chairman CROW. Thank you, Mr. Wardrip.
    And Mr. James, you are now recognized for 5 minutes.

                    STATEMENT OF NEIL JAMES

    Mr. JAMES. Chairman Crow, Ranking Member Hern, and members 
of the Subcommittee on Innovation and Workforce Development, 
thank you for the opportunity to testify on the topic of 
creating a clean energy workforce.
    My name is Neil James, and I am vice president of 
Operations, Maintenance, and Monitoring at Apex Clean Energy. I 
have more than 38 years of experience in electrical utilities, 
alternative energy, and high-voltage operations, and feel I 
bring a unique perspective on workforce development as an 
operations and maintenance supervisor with Apex.
    My remarks today will focus on the U.S. wind industry's 
rapid growth and the opportunities and challenges we face in 
recruiting, training, and developing the necessary workforce to 
meet the increased demand for an expanded clean energy economy. 
I will also touch on Apex's approach to workforce development.
    Apex Clean Energy develops, constructs, and operates 
utility scale wind and solar power facilities across North 
America. Our mission driven team of more than 200 renewable 
energy experts use a data-focused approach and unrivaled 
portfolio of projects to create solutions for the world's most 
innovative and forward-thinking customers.
    Headquartered 2-1/2 hours from here in Charlottesville, 
Virginia, Apex's work has led to over $7 billion in clean 
energy investment, equal to 5 gigawatts of clean energy being 
added to the grid and we operate nearly 2 gigawatts from our 
remote operations facility also in Charlottesville. Apex was 
built with a singular focus in mind, to accelerate the shift to 
clean electricity.
    The U.S. wind industry is made up of manufacturing, 
construction, operations and maintenance, developers, 
engineers, and business-trained individuals. Currently, the 
industry comprises more than 114,000 workers across all 50 
states. Industry experts predict that by 2020 the industry will 
support nearly a quarter million American jobs. Wind turbine 
technician is the second fastest growing job in the country. 
Only solar photovoltaic installers rank higher.
    The wind industry employs more Americans than nuclear, 
coal, natural gas, or hydroelectric power generation.
    At Apex, we have five core company values--entrepeneurship, 
integrity, professionalism, safety, and sustainability. When we 
are recruiting employees we look for individuals who embody 
these core values, and we strive to live these values both 
professionally and personally.
    I want to take 1 minute to provide an example of what this 
looks like at Apex. My colleague, Marco Pineda, came to the 
U.S. from Honduras as a small boy. Marco went to college, 
received a degree in accounting, and at the time work was 
scarce, so he took a job in the oil field. Not long after he 
recognized an opportunity in clean energy near his home in 
South Texas and began working for Vestas as a wind technician, 
and soon site manager. In 2015, Apex brought him on board. He 
is managing our Cameron wind facility. He since has been 
promoted to a regional operations manager operating nine wind 
and solar assets across the U.S. and Canada. Marco has 
exemplified our core values. And to add, he became a United 
States citizen this year.
    Apex also firmly believes that veterans bring some of the 
best talent to the wind business. The skills they learned 
defending our country transition well to positions in clean 
energy. At Apex, our company is veteran led at every level from 
our CEO, Mark Goodwin serving as a pilot with the Navy; COO, 
Ken Young, West Point, United States Army; our asset manager, 
Dan Wetzel, Marine Corps captain; operations, Aaron Strobel, 
Navy airman. The list goes on.
    Meeting the growing demand of renewable energy will require 
additional investment in finding the necessary workforce. We 
must create more opportunities to educate and train individuals 
for careers in the clean energy economy. We need more schools 
to offer these training opportunities if we are going to meet 
the demand. Potential ways to achieve this include creating 
greater awareness of the opportunity, expanding public-private 
partnerships, and building out incentive structures for schools 
to initiate these programs. Where schools have programs, it 
creates incentives for them to collaborate broadly with the 
industry. Also, members can support the bipartisan Wind 
Workforce Modernization and Training Act introduced by Senators 
Ernst and King.
    This is an exciting time to be in the clean energy sector. 
The industry is strong today and our future looks even 
stronger. And though we see challenges in establishing the 
necessary workforce to aid in the transition to a clearer 
energy economy, the opportunity is far too great for us to fall 
short.
    Mr. Chairman, almost 2/3 of the Committee members have Apex 
facilities either in development or construction in their 
states. I invite you and your constituents to visit one of our 
projects.
    Thank you again for the opportunity to testify. I look 
forward to answering your questions.
    Chairman CROW. Thank you, Mr. James. And I know we all 
appreciate the invitation as well. And I am sure several of us 
will avail ourselves of it. So I appreciate that.
    Mr. JAMES. We look forward to it.
    Chairman CROW. Mr. Gilliland, you are now recognized for 5 
minutes.

                   STATEMENT OF ED GILLILAND

    Mr. GILLILAND. Thank you, Chairman Crow, Ranking Member 
Hern, and members of the Subcommittee. My name is Ed Gilliland. 
I am senior director at The Solar Foundation. I oversee our 
programs, including a number of workforce-related solar 
programs and am principal author of our National Solar Jobs 
Census.
    For our census in 2018, we found that there were 242,000 
solar jobs in the United States. Those jobs have grown 159 
percent since 2010 when we first began conducting our census. 
The growth has primarily been due to declining prices and a 
favorable policy environment. Solar jobs are not just in 
installation but also include manufacturing, wholesale trade 
and distribution, law, design, finance and a host of other 
areas.
    About 2/3's of the employment in the solar companies are in 
the installation sector, and that is the fastest growing 
sector. It has tripled its employment since 2010. But all of 
the sectors are experiencing growth. Even manufacturing has 
grown 35 percent since 2010. In the past 2 years we have seen 
an annual decline of about 3 to 4 percent in solar jobs, but we 
are expecting 2019 to resume employment growth.
    Despite the recent decline though, there was growth in 29 
states and the District in solar energy jobs. Some of the 
leading states include Florida, Illinois, Texas, Ohio, 
Washington.
    Even with the recent decline in jobs, solar employers 
continue to struggle to find and retain qualified employees. In 
2018, 26 percent of the solar employers reported that it was 
very difficult to hire qualified employees, and that is up from 
18 percent the previous year. We generally credit this to the 
low unemployment rate and the very competitive construction 
industry that is also seeking many qualified employees.
    Hiring challenges also vary by market segment. In the 
installation segment, 33 percent of employers reported that it 
was very difficult to hire qualified employees. Geographically, 
there is a lot of variation as well. So, for instance, in the 
south central region, which includes Alabama, Kentucky, 
Mississippi, and Tennessee, 43 percent of the solar employees 
reported that it was very difficult to find qualified 
employees. That is likely due to these states being emerging 
markets for solar, and so it is more difficult to for employers 
to find qualified employees in these states.
    The solar industry offers a rewarding career and relatively 
low barriers for entry. Most solar jobs require experience, but 
a majority do not require a bachelor's degree. Training and 
certifications are not required for entry level but are 
important for career advancement.
    So, what are we looking for in the future? Well, if by 2030 
we want solar to reduce the electric sector greenhouse gas 
emissions by 35 percent, we are going to need solar to provide 
20 percent of the power to the grid. And that is going to 
require 600,000 employees, about 400,000 more than we currently 
have.
    What will they be working on? There is going to be more 
automation, so there is going to be more need for higher skill 
levels. And despite the growing automation, we expect it to 
further drive down prices and drive up demand. There will be 
more operations and maintenance jobs. There will be more jobs 
in storage. And then there are going to be more jobs in these 
emerging states.
    Thank you so much for the chance to testify. And may the 
Houston Astros strike out many times.
    Chairman CROW. Thank you, Mr. Gilliland. I think you will 
find a lot of unanimity on that last statement, in this room in 
particular, so.
    I will begin by recognizing myself for 5 minutes. I would 
like to begin with Mr. Wardrip. I introduced earlier this year 
a bill, the Save Energy Act, which will allow homeowners 
basically to have a $500 tax credit to make energy efficiency 
improvements to their homes. That could be insulation, energy 
efficient appliances, doors, windows, things of that nature. 
And I know in Colorado, we have had experience in the past when 
there have been tax credits along those lines, we have seen a 
vast increase in economic activity, particularly in the 
building trades as more people are employed to actually do that 
work, to make those improvements. And it also increases the 
value of homeowners' homes as well as they make those 
improvements.
    So I would love to hear your thoughts and then go to Mr. 
Jackson as well, very briefly. I would love your thoughts on 
how you think that a tax credit like mine in the Save Energy 
Act would help promote your fields and accomplish what it is 
designed to accomplish.
    Mr. WARDRIP. Thank you for the question.
    I think that, in my opinion, that would help us certainly 
grow. We do not do a lot in residential, but we do have 
residential groups. It would be the next emerging opportunity 
for us in the state of Colorado. We have incredible 
apprenticeships, registered apprenticeships that are very 
versatile. We can change our training to whatever the 
necessities are. So I think for us, and I think it would be 
fantastic, but I think as a homeowner I would love to have that 
opportunity to retrofit my house with proper windows to save 
energy, so.
    Mr. JACKSON. Thank you for the question.
    I would echo what Mr. Wardrip also talked about. I think we 
have seen things like this over the last 10 years back when we 
had some economic struggles in the early part of this decade. 
We were seeing a lot of incentives out there from utility 
companies, through our state energy offices, and it definitely 
drove demand, especially around energy efficiency rebates and 
upgrades to homes. And we know that especially at the $500 
level, that is actually driving work for small businesses to 
come into homes to actually do things like insulation upgrades, 
air sealing, replacement of windows and doors and things like 
that to improve energy efficiency. So I think that would be a 
great win.
    Chairman CROW. Mr. James and Mr. Gilliland, both of you 
talked about the challenges of finding qualified employees in 
the pipeline. So starting with Mr. James, I would love your 
thoughts, you know, as an employer. Where are you finding these 
folks, and what in your view is the biggest barrier to people 
going into this industry having careers?
    Mr. JAMES. Thank you for the question.
    Historically, we have looked to our veterans for our 
workforce. Obviously, the training that they receive is next to 
none, and they come in very well qualified to take the 
positions that we have available. Another avenue is the 
community colleges. They have excellent 2-year degrees, similar 
to apprenticeships, that they come in with the basics in 
electrical, mechanical, and hydraulics, which is the foundation 
of the wind turbines, and solar for that matter on the 
electrical side. So the community colleges are another point of 
emphasis.
    AWEA is driving the development of the workforce as well 
through some qualified electrical worker programs and some 
different incentives that we are working on there as well. So 
it is a holistic approach to gathering the qualified personnel. 
And ensuring that they have a good base training to come 
aboard.
    Mr. GILLILAND. Sure. So, we are seeing that there are a lot 
of opportunities for veterans and transitioning military to 
enter the solar field. The employers, as just evidence by Mr. 
James's comment, really favor the service experience. As I 
mentioned earlier, there is not a tremendous need for training 
for entry level jobs, although companies do express a need for 
some kind of standard template. But it is not--I mean, we are 
talking about a week or 2 weeks of training that is typically 
what the larger companies provide to entry-level employees. It 
is harder for smaller companies because they do not have those 
established programs. But there is certainly also a need for 
incumbent training. There are a lot of opportunities to advance 
from entry level to a crew, and consequently, a lot of need in 
that incumbent training.
    Chairman CROW. Thank you. I appreciate that.
    My time has now expired.
    The Ranking Member, Mr. Hern, is now recognized for 5 
minutes.
    Mr. HERN. Thank you, Mr. Chairman. Thank you for the 
witnesses being here today.
    You know, as a mechanical engineer and as a small business 
owner for over 34 years across multiple industries, as a person 
who has created thousands of jobs in my career, I understand 
the importance of developing high-skilled workers and certainly 
getting people in new industries and how important it is.
    Additionally, you mentioned career centers. I was fortunate 
in high school to do 2 years and get a drafting certificate, so 
just a broad background and experiences in our vocational 
schools as well.
    You know, given these programs' successes and the increased 
demand for skilled workers, it is vital that we utilize 
available workforce development programs to educate workers' 
interests in the energy industry. However, we need to be 
realistic in our approach to increase reliance on renewable 
resources as we currently do not have the means to become 100 
percent reliable on renewable injury without horrible effects 
on hardworking Americans. You are advocating a normal free 
market transition as I am hearing, so I appreciate that.
    And I say this because I am also a member on the Natural 
Resources Committee, where I have seen a plethora of partisan, 
radical, socialist policies like we will talk about the Green 
New Deal. There are conversations going on about that. I am 
sure you are keenly aware of all the details there, which is 
outside the free market transition that do nothing but impose 
impossible mandates that would be even more difficult for you 
to fill those jobs as people are coming off other energy 
sectors.
    So I have also talked about how bipartisan this Committee 
has been in finding solutions for small business men and women. 
I spoke to that on the floor just last week, to the Chairwoman 
and the Ranking Member of this Committee, about how we have 
moved forward to find workable bills that help benefit small 
business men and women who are trying to grow their businesses, 
find available employees, and put them to work.
    So again, it is really important that we recognize we have 
all these resources and then also what you all are doing to 
make that work as well.
    I am very interested, and I know Chairman Crow is based on 
his military background. I would like to expand on this Solar 
Vets program that you are part of. I think you are trying to 
bring that back, Mr. Gilliland?
    Mr. GILLILAND. Yes.
    Mr. HERN. Could you talk to us about the successes of that 
program and why it stopped and why it is starting back up and 
what your thoughts are?
    Mr. GILLILAND. Sure. So the initial version of Solar Ready 
Vets was focused on setting up training programs for 10 
military bases around the country. We worked with the 
Department of Energy on working with, say, nearby community 
colleges to set up training programs and recruit service 
members, the transitioning service members into these programs, 
and there were a number of successes. It varied depending upon 
base and on the quality of the programs. But a number of 
transitioning service members did matriculate through these 
programs and many got jobs in solar.
    The newer version, the one we are working on now, is 
including veterans as well as transitioning services members. 
And it also is focused on some of the policy challenges that we 
ran into before. One of the issues we ran into before was that 
sometimes it was difficult for vets to use their GI bill for 
solar-related training. And so, on this version of the Solar 
Ready Vets program, we actually have a task, and one of our 
areas of focus is to work with community colleges on getting 
more acceptance of the GI bill.
    Mr. HERN. Mr. Gilliland, if I could, just reclaiming some 
of my time here just so I do not want to run out of time, 
because I want to ask you a couple questions. I think you were 
starting to allude to it. If we could help out, you know, 
through this Committee, one of the things this Committee does 
very well is to take where some of these bottlenecks are and 
help get this information and legislation pushed through other 
Committees. I think you were referencing TAPS, where you are 
transitioning out of the military and being able to get into 
some of these programs that are GI qualified. And as an 
example, we have a great, probably the second best--I would 
claim it would be the first best technical school program in 
Oklahoma, and we are also the number two wind producer in the 
country. And we also probably have one of the highest per 
capita of veterans, 115,000 in Northeast Oklahoma alone, one of 
the seven VA regional hospital programs. And so there are a lot 
of things around veterans, yet we do not have a program like 
this to help our military men and women transition into these 
high-paying jobs. As this industry continues to grow, again, in 
a state that relies on fossil fuels, as a major contributor to 
its budget, and so I would really appreciate as we go forward 
if we can get the information from you to the Chairman and to 
the Ranking Member of the Subcommittee and to Chairwoman 
Velazquez and to Ranking Member Chabot so that we can help you 
get this program back up and going in a timely fashion.
    Thank you, all. I am sorry, I ran out of time. I have a ton 
of questions for you. Thank you so much for being here.
    Chairman CROW. Thank you, Mr. Hern. The gentleman's time 
has expired.
    And I will just reiterate his comments about, you know, the 
nature of this Committee and how bipartisan it is, and we take 
a lot of pride in that. Our approach traditionally has been we 
find areas of overlap and common agreement to get things done, 
and I think a great testament to that is the fact that we have 
actually passed dozens of bills this year unanimously out of 
this Committee. And we are very proud of that fact.
    Now, the gentleman from Illinois, Mr. Schneider, is 
recognized for 5 minutes.
    Mr. SCHNEIDER. Thank you, Mr. Chairman. And thank you for 
calling this hearing today. I want to thank the witnesses for 
joining us today and for sharing your experiences and 
perspectives in what is an increasingly important issue.
    I come from Illinois. Actually, I come from Colorado, 
originally, Mr. Wardrip, a native, but I moved to Illinois. It 
is where I have had my home for the last, well, now 40 years, 
and it is where I have the privilege of representing.
    In our state 3 years ago, we passed the Future Energy Jobs 
Act, which will help power our state's investment in the green 
economy in the future you touched about in Colorado which I 
will come to in a second.
    We passed the bill because consumers want to be able to 
choose renewables, and utilities around the country are making 
investments in new green energy infrastructure. It is crucial 
that in our state, the Illinois Future Energy Jobs Act, one of 
the crucial things it did was to make the necessary investment 
in our workforce so that we can meet the demands over the next 
decade of the new types of jobs that the green energy economy 
is going to bring. To do this, our Illinois legislature brought 
together the educational infrastructure of community colleges, 
which we have many wonderful ones, two in my district, and the 
know-how of the networks of organized labor. The legislation is 
expected to help create literally thousands of clean energy 
jobs in Illinois and hopefully create a pipeline through which 
we will train these future green energy workers. And that is 
because its success relies on one critical stakeholder, and 
that is organized labor.
    And Mr. Wardrip, you mentioned you were part of SMART and a 
sheet metal worker. I would be interested in your perspective 
of how organized labor will be a critical resource as we move 
forward in the clean energy revolution. As you mentioned, in 
Colorado, renewables are replacing coal at an extraordinary 
rate and with my family all still there, I have watched it with 
keen interest. And how will labor be centrally enclosing the 
green energy skills gap?
    Mr. WARDRIP. Thank you for the question.
    So again, I go back to our registered apprenticeships are 
the most versatile training programs out there. We can train to 
what the necessities require. So without really much effort. We 
already have many wind opportunities with the IBW locals, as 
well as electrical, transmission lines, things of that nature. 
We already do hoisting and rigging, iron work, that type of 
thing. We are ready to be there. We are ready to do the work. 
We just have not done a lot of that work in there.
    The other thing that we bring to the table is as the power 
plants are being closed and as the mines are reducing 
production substantially in the state of Colorado, we have a 
workforce available. They are going to be available starting in 
2022 and going all the way up to 2040 due to the utilities 
cutting the coal production and going to solar rays and some 
gas and mostly wind and solar. So we have the workforce 
available. We are willing to train those people and transition 
them to be able to do and answer the call of the renewable 
futures.
    Mr. SCHNEIDER. And maybe I will turn to Mr. James. You do 
industrial scale solar.
    Mr. JAMES. That is correct, yes.
    Mr. SCHNEIDER. You know, one of the concerns we have for 
the communities like in Colorado where there is a decline in 
demand for the coal, we just want to make sure that the people 
in these communities have opportunities. Are there 
opportunities for these folks to be trained and find employment 
in industrial scale solar that will allow them to stay close to 
home? As a father of boys in their twenties, I want my kids 
close to home. They are not now. We want our grandkids close to 
us. That is true where I live. I think it is true for every 
parent who hopes to be a grandparent, we want our kids close to 
us.
    Mr. JAMES. That is right. And I failed to mention, Mr. 
Schneider, that as the more traditional generating technologies 
close for various reasons, efficiencies, and those types of 
things, the workforce that are left there are a very skilled 
workforce.
    Mr. SCHNEIDER. Right.
    Mr. JAMES. One that, you know, have the various skills that 
we are looking for, both in solar and in wind. So yes, that is 
another pipeline I failed to mention as we talked about the 
community colleges and the technical schools and the veterans. 
Already trained employees from a downtrodden type of 
technology, that is a no-brainer. We will pick them up.
    Mr. SCHNEIDER. Obviously, we can transition.
    Mr. JAMES. Pick them up. Yes.
    Mr. SCHNEIDER. With my few seconds left, I just want to go 
back and emphasize, I think it was you, Mr. Wardrip, who 
mentioned Helmets to Hard Hats with my colleague, Mr. Spano, 
from Florida, on this Committee, bipartisanship which the 
Chairman touched on. We are pushing legislation that will 
reauthorize and move forward the boots to business, working 
with our veterans and military personnel who are transitioning 
back into civilian life, there are a lot of great 
opportunities. And so I think making sure we have the 
workforce, making sure that people who want to be entrepreneurs 
see a pathway in this field. There is a lot of opportunity 
here. We should not let it pass us by.
    And with that, I yield back.
    Chairman CROW. Thank you. The gentleman yields back.
    The gentleman from New Jersey, Mr. Kim, is now recognized 
for 5 minutes.
    Mr. KIM. Great. Thank you, Mr. Chairman and Ranking Member 
for holding this hearing. And thank you to the witnesses. 
Thanks for coming on out and talking with us here.
    I just have a couple questions I just want to jump into.
    You know, my district in New Jersey, there are a lot of 
jobs that are related to what it is we are talking here. About 
3,500 jobs when it comes to energy efficiency, a lot when it 
comes to solar manufacturing installation. And as I talked to 
the business owners there and the workers there, what we are 
trying to think about is just understand the trend lines and 
when we say what is our vision for our community, not just, you 
know, next year but 10 years down the road, 20 years down the 
road.
    When I was looking through some of the material prepped for 
this hearing, you know, we are talking about how energy 
efficiency is the fastest-growing sector when it comes to 
energy sector and talking about the growth in that way. But I 
guess what I want to glean from you as sort of the big picture 
is where do you guys see things going from here? You know, 
especially, let's start with the energy efficiency side of 
things. You know, what kind of growth should we expect over the 
next 10 years? What particular types of jobs within there do 
you see being the ones that are in demand? And then are we 
keeping up with the training side of things to make sure that 
we are able to sustain that type of growth going forward?
    So I am not sure if anyone particularly wants to speak to 
that.
    Mr. Jackson, you are kind of nodding your head a bunch. Do 
you want to take the first crack?
    Mr. JACKSON. Absolutely. That would be wonderful.
    Actually, you bring up some great ideas and questions. So 
we actually see energy efficiency, like most do, as the 
cheapest fuel. It is the first fuel. And we look at energy 
efficiency as answering the call for most homes and buildings 
first before actually bringing in things like renewables, wind, 
solar, programs like that.
    What we are seeing in Virginia over the last 5 years, so if 
we look back at 2014, specific to low income energy efficiency 
programs just for utilities, we are around $500,000 in 2014. In 
2022, we are projecting about $50 million in programs. That is 
a huge growth for our industry in Virginia around energy 
efficiency. Not around renewables. This is just around energy 
efficiency.
    What we are doing to meet that demand is specifically in 
our training center, and we have been doing this for years, is 
we actually train and credential employees and provide career 
ladders within the Weatherization Assistance Program. And we 
train in 26 states. Most of the states that there is a 
representative from this Committee we train in, also. New 
Jersey, we have a state training contract, and we provide 
career ladders, but then those credentials are transferrable 
and portable between public and private sectors, and that is 
huge so employees can actually move between those sectors, 
especially for small subcontractors that will actually do work 
for the Weatherization Assistance Program and then also do 
private industry work for homeowners.
    Mr. KIM. I am just going to add another element to this. 
Mr. James, I wanted to kind of seek some of your expertise on 
this. My district is a district with, you know, the Jersey 
Shoreline. There is a lot of talk in my state about offshore 
wind. And I am just trying to get a sense of the workforce side 
of things. Help me understand, you know, what are the 
differences in terms of the training needed, the expertise 
needed, for those working on installation of onshore versus 
offshore?
    Mr. JAMES. Sure. That is a great question, Mr. Kim.
    The similarities are very much alike with respect to the 
turbine once you get up off of the waterline and in the tower 
and the nacelle and what have you. Obviously, the resource to 
get to the tower is a little bit different, and cranes and 
those types of activities for some of the major correctives or 
maintenances might require a little additional training.
    Safety is another aspect that is looked at a little bit 
different out on the water versus inland. But overall speaking, 
there are not a lot of differences in the qualifications or 
training requirements for a technician to work either inland or 
offshore.
    Mr. KIM. And the last final question, Mr. Gilliland, over 
to you. I just wanted to kind of get your thoughts on 
something. I get asked a lot about just, you know, the 
installation of solar systems for folks in the district. And 
basically, what folks are just kind of asking me about is what 
kind of guarantee do they have, what kind of assurances do they 
have in terms of knowing that they are going to be able to 
reduce their energy bill over the long term, you know, just in 
terms of just the concerns they have about the high cost of 
utilities and other things like that? So I guess I just kind of 
wanted to hear from you, you know, what is sort of the best 
pitch here? What should I be saying to, or what should folks be 
saying to my constituents about that just in the few seconds we 
have left?
    Mr. GILLILAND. Sure. So first of all, solar is an upfront 
investment. So, it is all cap X. And then it pays off over 
time. It is never going to vary. So, non-solar energy costs 
will go up and down. They could go way up but solar, once it is 
constructed, is a stable cost curve for the rest of the life of 
the system. And the cost is going down. The cost to develop 
solar, even in the last year, has dropped 7 to 11 percent.
    Mr. KIM. Just in the last year?
    Mr. GILLILAND. Just in the last year. So, it is a great 
deal. It is a terrific opportunity.
    Mr. KIM. That sounds good.
    Well, I yield back, Mr. Chair.
    Chairman CROW. Thank you. The gentleman yields back.
    Now, I would like to recognize Ms. Davids, from Oklahoma.
    Mrs. DAVIS. Kansas.
    Chairman CROW. Kansas. Sorry, Kansas.
    Mrs. DAVIS. That is okay.
    Well, thank you, Chairman. And I also appreciate all of the 
folks who came to offer testimony and help us better understand 
this.
    I represent the Kansas 3rd Congressional District, which is 
the Kansas City Metro area. And there are a lot of folks in our 
community and in my district who are very concerned about 
making sure that we address issues of climate change and 
resiliency and I often cite a rather general climate index that 
puts the Kansas City Metro area as the likely fifth most to be 
impacted of 25 metro areas that they looked at because of 
climate change. And our area faces both drought and flooding 
issues, and that is only going to be exacerbated as we move 
forward.
    So the transition to renewables is something that I am very 
interested in. And that is not just for buildings and 
structures, but also for transportation and infrastructure as I 
sit on that Committee.
    One of the things that I am really proud of is that 40 
percent of Kansas's energy comes from wind energy. We produce a 
lot of wind energy out there. And I am hoping that we can 
continue that push in that direction. But one of the things 
that I wonder about from you all is, how can our Committee and 
the SBA be helpful in making sure that we are providing 
incentives and investments into that space where it makes 
sense? And I think about that because wind is obviously in the 
Kansas area and the Plains area great, but solar is better in 
other places. So I want to make sure we are incentivizing but 
not restricting progress on that.
    And I will open it up to--I see some head nodding, so.
    Mr. James?
    Mr. JAMES. All right. Ms. Davids, thank you.
    I have had the pleasure of working on several Kansas wind 
farms and projects in the past, so you are right, there is a 
lot of wind in Kansas.
    I think to your question, for us it is back to the growth 
that we are going to see in the next couple of years in both 
wind and solar is going to be staggering. And in developing 
that workforce is going to be key. Several have mentioned ideas 
and places to get that resource.
    But I fall back to the community colleges and the grants 
and some of the support that maybe the military veterans can 
gather from the Committee in order to be directed in our way 
because the jobs are going to be there and definitely need 
filled.
    Mrs. DAVIS. So Mr. Wardrip, I was wondering if you could 
talk a little bit about, I think the Armed Services is an 
amazing place for people to learn skills and leadership, and 
especially entrepreneurial skills that are going to be very 
beneficial as they move forward after their time serving. But 
the trades, and I think about apprenticeship programs and very 
technical skills that folks who are part of various unions. Can 
you talk a little bit about the positive impact that those 
things can have as we move into a more renewable energy sector? 
And maybe what your vision for that is?
    Mr. WARDRIP. Yes, on both.
    So let me start with the second one first.
    The vision that I have is that, of course, that we would 
make sure that the workers that currently hold the work in coal 
are able to transition into the work going into renewables. But 
there has to be a reality that those people make a very good 
living. And so to retrain at 50 percent of what they currently 
would make, that is unreasonable. So therefore, as you asked 
earlier, and sorry to go back to the previous question, I think 
if you are going to provide incentives, then that incentive 
must have a stipulation that states that these people are going 
to make dollar for dollar all the way to their pensions and 
health care. So I think that is something to my core is 
something that needs to be held, you know, that needs to be 
accountable for the renewable.
    Secondly, we also see Helmets to Hard Hats, as well as 
other veterans' programs to bring veterans into our 
apprenticeships and grow in the renewable market knowing that 
that is really what the new power world is going to be about. 
And we welcome that. So hopefully I covered most of it.
    Mrs. DAVIS. Thank you. I appreciate it. And I yield back.
    Chairman CROW. Thank you. The gentlelady from Kansas yields 
back.
    I would like to recognize myself for a few more minutes 
here for additional questions. And this relates to something 
that Mr. Hern, who unfortunately had to go off to another 
hearing, brought up, but it is a concern we have talked about.
    Climate change is, of course, one of my top concerns, and I 
am doing a lot of stuff here to address it. At the same time, I 
do have a lot of conversations in my community and my district 
about people who are being caught up in that transition. And I 
know Mr. Wardrip, you talked about that earlier. These are 
folks that are, you know, sometimes working paycheck to 
paycheck. They have to be able to pay their rent and their 
mortgage. They are supporting families. We are experiencing 
firsthand in Colorado a transition from fossil fuels, from 
coal-fired power plants to renewable energy, and there is great 
opportunity there and there are tremendous careers available in 
that area. But we do want to make sure that it is just and it 
is equitable and it is seamless, and these people who are 
supporting their families have the ability to do it. And that 
is one of the reasons why I am a huge proponent of 
apprenticeships because people can learn on the job, they can 
be paid, they can continue to support their families while they 
are making that career transition.
    So with that as background, starting with you, Mr. Wardrip, 
what do we have to do to expand the opportunities in those 
apprenticeships? Helmets to Hard Hats is obviously a clear 
example of people making the transition from military to 
civilian life, but other apprenticeship programs, how do we 
kind of change the mindset and increase that pipeline so people 
can actually do that and do it in a way that supports our 
economy, supports the transition we need to make for our 
environment, but also can support their families as well?
    Mr. WARDRIP. Thank you.
    So first things first is get rid of the stigma that we are 
a closed shop. We welcome everybody. There is nobody that we 
would not welcome as long as they can, you know, they want to 
come to work, give us 40 hours, be there at 7 o'clock in the 
morning, we would welcome them all day, every day. I think that 
is the number one thing.
    The other thing would be to partner with independent power 
producers. What we have seen in Colorado is we sadly have not 
had much of a partnership. We do some work but to the extent, 
it is very little. We would like to figure out how to make sure 
that when we are doing construction, that we have the 
opportunity to have the local workers, and I mean the people 
that live in the towns where the coal is being taken out of. 
And then solar rays and wind should be put back where those 
towns are losing the coal. Those worker should have first shots 
at that. And then, of course, going to the county and then 
expand out to the state. Whatever it takes. But make an outward 
circular motion to be able to have workers from the area do the 
work specifically in the state at the farthest, and then bring 
people in from out of state to participate doing that work. I 
think that helps the economy, and I think that helps the 
communities that are going to be frankly decimated in many 
parts of Colorado.
    And then, also, again, we are versatile enough that we can 
train to do work in Craig from Grand Junction, which is about a 
100-mile drive. We are versatile enough and willing to do that 
work. That is what construction workers do.
    Chairman CROW. Thank you, Mr. Wardrip.
    Any other comments or thoughts on that?
    Yes, Mr. Gilliland?
    Mr. GILLILAND. So, first of all, we did prepare a full 
report on solar workforce development that has a big section on 
apprenticeships and that is referenced in the material that we 
submitted. Despite saying that many entry-level solar jobs do 
not need a lot of training, we do see that there is a 
tremendous opportunity for apprenticeships in solar. In our new 
Solar Ready Vets program, we are actually looking at registered 
apprenticeships at the Department of Labor and seeing how we 
can fit solar into their system. So, we see that as a very good 
opportunity for solar.
    Chairman CROW. Thank you.
    It seems to me there is also a cultural mindset that needs 
to shift here, as well. Right? You know, for decades, we have a 
K-12 pipeline and we have a culture that tells young folks that 
to have a career and a middle-class life you have to go to a 4-
year college or university, yet we see that we have a 
substantial deficit in America today on the trades, in crafts, 
and highly-qualified workers in this field that can have a very 
strong middle-class life and support their families in these 
industries.
    So from a cultural perspective, what are you all doing on 
the ground to communicate that to people in your community and 
young folks that you can build a life and have a career and do 
it in this way?
    Mr. JAMES. I will start off, Mr. Crow.
    In all of our development areas, different states across 
the U.S., we hold public forums. And those are very successful 
in spreading the word of the opportunity and the challenges 
that we have as an industry in the workforce, in the 
development. So that is a primary communication tool that we 
have is just talking to the public, making them aware of the 
opportunity and what it takes to get that started, and that has 
been received very well.
    Mr. JACKSON. If I may for a moment.
    So very similar. We spend time out in the field at 
community colleges and actually high schools. So what we are 
seeing and hearing a lot from the younger population generation 
is the concern about the burden of college debt. So I have to 
go to a 4-year college. Well, now I have to get a master's 
degree if I really want to have earning potential. And then I 
have that debt I am going to carry for 10 to 20 years. So we 
are actually starting to see younger population from the high 
schools that will finish and then come to us, actually, and our 
program is very much like an apprentice program. Most of our 
folks, they start out with one week of training, and then as 
you step up through the career ladder you take additional 
courses. Our energy auditors can take as much as 9 weeks of 
courses over a 2-year timeframe.
    And I will tell you also, within our industry, especially 
Community Housing Partners, our average tenure is 18-1/2 years. 
Once folks start in our program, they stay in our program. And 
we see that over and over because it is a passion to save 
energy and to help people.
    Chairman CROW. Thank you. Mr. Jackson, any other comments 
on that? All right.
    Thank you to all of you and all of the witnesses today for 
taking time out of your busy schedules to be with us.
    As we have heard today, small businesses are at the 
forefront of the clean energy economy, promoting new 
technologies in renewable energy and energy efficiency. Whether 
it be in the production of biofuels, renewable energy, or 
energy-efficient products, small businesses are playing a key 
role.
    I want to thank our witnesses for being here and sharing 
the challenges and opportunities that they see out in the 
communities and on the ground every day. I look forward to 
working with my colleagues on this Committee, on both sides of 
the aisle, to address and pursue policies that we should 
consider to train workers and grow with this industry. I am 
glad we share the priority of energy independence in supporting 
small business growth and innovation in this new and exciting 
sector.
    I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 11:11 a.m., the Subcommittee was adjourned.]
                           
                           
                           A P P E N D I X


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
